CERTIFICATE OF WORD COUNT
Case No. 20-978
Case Name: Poppi Metaxas v. United States of America
Title: Petition for Rehearing
Pursuant to Rule 33.1(h) of the Rules of this Court, I certify that
the accompanying Petition for Rehearing, which was prepared using
Century Schoolbook 14-point typeface, contains 405 words, excluding
the parts of the document that are exempted by Rule 33.1(d). This
certificate was prepared in reliance on the word-count function of the
word-processing system (Microsoft Word) used to prepare the document.
I declare under penalty of perjury that the foregoing is true and
correct.
DATED this 19th day of March, 2021.
Respectfully submitted,
/s/Brandon Sample
Brandon Sample
Brandon Sample PLC
P.O. Box 250
Rutland, Vermont 05702
Phone: (802) 444-4357
Fax: (802) 779-9590
Vt Bar # 5573
Email: brandon@brandonsample.com
https://brandonsample.com
Counsel for Petitioner

